Antuony & PARTNERS 201 N. FRANKLIN STREET

Attorneys aT Law Sure 2800
Tampa, FL 33602
Main: 813-273-5616
Direct: (813) 273-5066 Fax: 813-221-4113
JANTHONY @ANTHONYANDPARTNERS.COM ANTHONYANDPARTNERS.COM

January 15, 2020
VIA ELECTRONIC FILING

The Honorable Scott S. Harris
Clerk of the Court

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: Lisa M. Phoenix y. Regions Bank
Supreme Court of the United States
Docket No. 19-815

Dear Mr. Harris:

I am writing on behalf of the respondent, Regions Bank (“Regions”), to request an
extension of time in which to file the opposition to the petition for a writ of certiorari (the “Cert
Petition”) filed by the petitioner, Lisa M. Phoenix (“Phoenix”), in the above-referenced matter,
pursuant to Supreme Court Rule 30(4). The Cert Petition was filed on December 24, 2019, and
unless an extension is granted, the deadline for filing Regions’s brief in opposition will be
January 27, 2020. On behalf of Regions, I am requesting one thirty (30) day extension, through
February 26, 2020, pursuant to Supreme Court Rule 30(4). An extension of that length is not
sought for purposes of delay, but necessary in light of the holiday disruptions following the filing
of the Cert Petition and in order to enable preparation of a response that Regions believes would
be most helpful the Court.

Counsel for petition, who requested and received a thirty (30) day extension to file the
Cert Petition, has advised that Phoenix consents to this request.

Very truly yours,
Gee

ce: Mark Thomas Stancil, Esq., counsel of record for petitioner
Matthew M. Madden, Esq., counsel for petitioner
Donald Burke, Esq., counsel for petitioner
Daniel R. Ortiz, Esq. counsel for petitioner
